Nos. 19-465, 19-518
I NTHE

$,Upteme ~ourt of tbe fflniteb $)tates
PETER BRET CHIAFALO, L EVI J ENNET GUERRA, AND ESTHER VIRGINIA J OHN,

v.
STATE OF WASHINGTON,

COLORADO DEPARTMENT OF STATE,
V.

MICHAEL B ACA, POLLY BACA, AND ROBERT NEMANICH,

Petitioners,

Respondent.
Petitioner,
Respondents.

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.l(h), I certify that the Brief of the
Making Every Vote Count Foundation as Amicus Curiae in Support of Neither Side
in the above-captioned consolidated cases contains 3,922 words, excluding the parts
of the document that are exempted by Supreme Court Rule 33. l (d).
I declare under penalty of perjury that the foregoing is true and correct.
Executed on March 9, 2020.

